                  DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                               Office of Inspector General
( t
'..
  'l. .l~""JO
  """4"""CS Ú'.                                                                                                        Washington, D.C. 20201


                                                                               FEB 1 a 2009




                  TO: Charlene Frizzera
                                          Acting Administrator
                                          Centers for Medicare & Medicaid Services


                  FROM: Daniel R. Levinson /S/
                                          Inspector General


                  SUBJECT: Memorandum Report: "Comparison of Second-Quarter 2008 Average Sales
                            Prices and Average Manufacturer Prices: Impact on Medicare
                                          Reimbursement for Fourth Quarter 2008," OEI-03-09-00050


                  This review was conducted in accordance with the congressional mandate for the Office of
                  Inspector General (OIG) to review average sales prices (ASP) and average manufacturer
                  prices (AMP) for Medicare Part B prescription drugs and identify ASPs that exceed AMPs
                  by at least 5 percent. The review also determined the impact of lowering reimbursement
                  amounts for drugs that meet the 5-percent threshold.

                  Since the advent of the ASP reimbursement methodology in 2005, OIG has issued nine
                  reports comparing ASPs to AMPs. This is OIG's 10th pricing comparison, and it examines
                  drugs that met the 5-percent threshold based on either complete or partial AMP data. i Ofthe
                  303 drugs with complete AMP data in the second quarer of2008, 10 met the 5-percent
                  threshold under the revised ASP payment methodology recently mandated by statute. Eight
                  of these ten drugs were previously eligible for price adjustment under the revised payment
                  methodology, with three drugs meeting the 5-percent threshold in each of                             the past six

                  quarters. If reimbursement amounts for all 10 drugs had been based on 103 percent of the
                  AMPs, we estimate that Medicare expenditures would have been reduced by over half a
                  milion dollars in the fourth quarer of2008. Ofthe 143 drugs with only partial AMP data,
                  21 had ASPs that exceeded the AMPs by at least 5 percent in the second quarter of2008.
                  Under the revised ASP payment methodology, 9 of                the 21 drugs would have met the
                  5-percent threshold in at least two of          the past six quarters, dating back to the first quarter of
                  2007. We estimate that Medicare expenditures would have been reduced by $3 milion
                  during the fourth quarter of 2008 if reimbursement amounts for all 21 drugs had been based
                  on 103 percent of the AMPs. We could not perform pricing comparisons for an additional

                  i In quarte s prior to 2008, OIG perfonned pricing comparisons only for those drugs with AMP data for every
                  drug product used by the Centers for Medicare & Medicaid Services (CMS) to calculate the Medicare
                  reimbursement amount. As of              the first quarter of2008, we began additionally examining drugs with only
                  partial AMP data (i.e., drugs with AMP data for some, but not all, ofthe products used to establish Medicare
                  reimbursement). This ensures that a broader range of drugs is subject to OIG's pricing comparisons.

                  OEI-03-09-00050                                                            Comparison of Second-Quarter 2008 ASPs and A s
Page 2 – Charlene Frizzera


68 drugs because none of the drug products used to establish Medicare reimbursement had
corresponding AMP data. Manufacturers for almost one-fifth of those drug products had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs.
OIG will continue to work with CMS to evaluate and pursue appropriate actions against
those manufacturers that fail to submit required data.

BACKGROUND

Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates that OIG compare
ASPs to AMPs. If OIG finds that the ASP for a drug exceeds the AMP by a certain
percentage (currently 5 percent), section 1847A(d)(3)(A) of the Act states that the Secretary
of the Department of Health and Human Services (the Secretary) may disregard the ASP for
the drug when setting reimbursement amounts. Section 1847A(d)(3)(C) of the Act goes on
to state that “. . . the Inspector General shall inform the Secretary (at such times as the
Secretary may specify to carry out this subparagraph) and the Secretary shall, effective as of
the next quarter, substitute for the amount of payment . . . the lesser of (i) the widely
available market price . . . (if any); or (ii) 103 percent of the average manufacturer
price . . . .”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered
drugs include injectable drugs administered by a physician; certain self-administered drugs,
such as oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with
durable medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors
(MAC), to process and pay Medicare Part B claims, including those for prescription drugs.
To obtain reimbursement for covered outpatient prescription drugs, physicians and suppliers
submit claims to their MACs using procedure codes. CMS established the Healthcare
Common Procedure Coding System (HCPCS) to provide a standardized coding system for
describing the specific items and services provided in the delivery of health care. In the case
of prescription drugs, each HCPCS code defines the drug name and dosage size but does not
specify manufacturer or package size information.

Medicare and its beneficiaries spent approximately $11 billion for Part B drugs in 2007. 2
Although Medicare paid for more than 600 outpatient prescription drug HCPCS codes that
year, the majority of spending for Part B drugs was concentrated on a relatively small subset
of those codes. In 2007, 52 codes accounted for 90 percent of the expenditures for Part B
drugs, with only 11 of these drugs representing half of the total Part B drug expenditures.



2
 Medicare expenditures for Part B drugs were calculated using 2007 data in CMS’s Part B Extract and
Summary System (BESS), which were 98-percent complete at the time of extraction.

OEI-03-09-00050                                   Comparison of Second-Quarter 2008 ASPs and AMPs
Page 3 – Charlene Frizzera


Reimbursement Methodology for Part B Drugs and Biologicals
Since January 2005, Medicare Part B has been paying for most covered drugs using a
reimbursement methodology based on ASPs. 3 Section 1847A(c) of the Act, as added by the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, defines an ASP as a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by
the manufacturer in that same quarter. The ASP is net of any price concessions, such as
volume discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug
rebate program. 4 Sales that are nominal in amount are exempted from the ASP calculation,
as are sales excluded from the determination of “best price” in the Medicaid drug rebate
program. 5 6

Manufacturers report ASPs by national drug codes (NDC), which are 11-digit identifiers that
indicate the manufacturer, product dosage form, and package size of the drug. Manufacturers
must provide CMS with the ASP and volume of sales for each NDC on a quarterly basis,
with submissions due 30 days after the close of each quarter. 7

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes
rather than NDCs and more than one NDC may meet the definition of a particular HCPCS
code, CMS has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes.
CMS uses information in this crosswalk file to calculate volume-weighted ASPs for covered
HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
To calculate volume-weighted ASPs, CMS uses an equation that involves the following
variables: the ASP for the 11-digit NDC as reported by the manufacturer, the volume of
sales for the NDC as reported by the manufacturer, and the number of billing units in the
NDC as determined by CMS. The amount of the drug contained in an NDC may differ from
the amount of the drug specified by the HCPCS code that providers use to bill Medicare.
Therefore, the number of billing units in an NDC describes the number of HCPCS code units
that are in that NDC. For instance, an NDC may contain a total of 10 milliliters of Drug A,
but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In this
case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

3
  In 2004, the reimbursement amount for most covered drugs was based on 85 percent of the average wholesale
price as published in national pricing compendia, such as the “Red Book.” Before 2004, Medicare Part B
reimbursed for covered drugs based on the lower of either the billed amount or 95 percent of the average
wholesale price.
4
  Section 1847A(c)(3) of the Act.
5
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the
manufacturer during the rebate period to any wholesaler, retailer, provider, health maintenance organization,
nonprofit entity, or governmental entity within the United States, with certain exceptions.
6
  Section 1847A(c)(2) of the Act.
7
  Section 1927(b)(3) of the Act.

OEI-03-09-00050                                    Comparison of Second-Quarter 2008 ASPs and AMPs
Page 4 – Charlene Frizzera


Before April 2008, CMS calculated volume-weighted ASPs using the equation presented in
Appendix A. However, section 112(a) of the Medicare, Medicaid, and SCHIP Extension Act
of 2007, P.L. No. 110-173, changed section 1847A(b) of the Act to require that CMS
compute volume-weighted ASPs using a revised methodology, effective April 2008. This
revised methodology was proposed by OIG in a February 2006 report entitled “Calculation
of Volume-Weighted Average Sales Price for Medicare Part B Prescription Drugs”
(OEI-03-05-00310). The revised equation for calculating volume-weighted ASPs is also
provided in Appendix A.

Fourth-quarter 2008 Medicare allowances for most covered drug codes were based on
second-quarter 2008 ASP submissions from manufacturers, which were volume-weighted
using the revised methodology. Under the ASP pricing methodology, the Medicare
allowance for most Part B drugs is equal to 106 percent of the volume-weighted ASP for the
HCPCS code. Medicare beneficiaries are responsible for 20 percent of this amount in the
form of coinsurance.

The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under
these rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must
provide CMS with the AMP for each of their NDCs on a quarterly basis, with submissions
due 30 days after the close of each quarter. 8

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to
the manufacturer for the drug in the United States by wholesalers for drugs distributed to the
retail pharmacy class of trade. Before the passage of the DRA, manufacturers were required
to deduct customary prompt pay discounts when calculating AMPs. However, section
6001(c)(1) of the DRA amended section 1927(k)(1) of the Act such that AMPs must be
determined without regard to customary prompt pay discounts, effective January 2007. In
December 2006, CMS instructed manufacturers to exclude customary prompt pay discounts
from their AMP calculations as of January 2007. 9 In July 2007, CMS published a final rule
at 72 Fed. Reg. 39142 (July 17, 2007) that, among other things, implements section
6001(c)(1) of the DRA and clarifies the way in which the AMP must be calculated.
Specifically, 42 CFR § 447.504 of the final regulation clarifies the manner in which the AMP
is to be determined. 10

8
  Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 (DRA), P.L. No. 109-171, changed section
1927(b) of the Act to require that manufacturers also report AMPs on a monthly basis, effective January 2007.
Drug manufacturers will continue to report quarterly AMP data in addition to their monthly submissions.
9
  CMS, Medicaid Drug Rebate Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76,
December 15, 2006.
10
   In December 2007, the United States District Court for the District of Columbia preliminarily enjoined the
implementation of the regulation for certain purposes not relevant to this report. Section 203 of the Medicare
Improvements for Patients and Providers Act of 2008 also delayed the implementation of certain aspects of the
regulation and the DRA requirements. Again, those aspects are not relevant for the purposes of this report.

OEI-03-09-00050                                    Comparison of Second-Quarter 2008 ASPs and AMPs
Page 5 – Charlene Frizzera


The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug sold during a given quarter and is reported for the lowest identifiable
quantity of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule).

If a manufacturer fails to provide AMP data in a timely manner, civil monetary penalties may
be imposed. 11 In addition, pursuant to section 1927(b)(4)(B) of the Act, the Secretary may
terminate a rebate agreement “for violation of the requirements of the agreement or other
good cause shown.” CMS has terminated a number of manufacturers for failure to report
drug-pricing data as required by section 1927 of the Act. CMS has also provided OIG with
information about manufacturers that failed to submit drug-pricing data for the purposes of
evaluating potential civil monetary penalty actions.

Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
Since the ASP reimbursement methodology for Part B prescription drugs was implemented
in January 2005, OIG has issued nine quarterly reports comparing ASPs and AMPs. In
addition, OIG recently completed an annual overview of ASPs and AMPs, which examined
data across all four quarters of 2007 using the revised ASP payment methodology recently
implemented by CMS. A list of all nine reports is provided in Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits
based on the findings of OIG’s pricing comparisons, CMS has yet to make any changes to
Part B drug reimbursement as a result of these studies. Rather, CMS has emphasized both
the complexity of substituting payment amounts and the importance of proceeding cautiously
to avoid unintended consequences. 12 In commenting on OIG’s reports, CMS has expressed a
desire to both better understand fluctuating differences between ASPs and AMPs and engage
stakeholders, with the intent of developing a process for making price substitutions. 13
However, CMS has not specified what, if any, steps it will take to adjust Medicare
reimbursement amounts for drugs that meet the 5-percent threshold specified in section
1847A(d)(3) of the Act.

OIG will continue to meet its congressional mandate by issuing reports based on quarterly
pricing comparisons, along with annual overviews to summarize findings across each
calendar year.

METHODOLOGY

We obtained from CMS NDC-level ASP data from the second quarter of 2008, which were
used to establish Part B drug reimbursement amounts for the fourth quarter of 2008. In
addition, we obtained the file that CMS used to crosswalk NDCs to their corresponding
HCPCS codes. Both the ASP data and the crosswalk file were current as of

11
   Pursuant to section 1927(b)(3)(C) of the Act.
12
   OEI-03-08-00450, December 2008.
13
   OEI-03-07-00140, July 2007, and OEI-03-08-00450, December 2008.

OEI-03-09-00050                                Comparison of Second-Quarter 2008 ASPs and AMPs
Page 6 – Charlene Frizzera


September 18, 2008. We also obtained AMP data from CMS for the second quarter of 2008,
which were current as of August 14, 2008.

Analysis of Average Sales Price Data From the Second Quarter of 2008
As mentioned previously, Medicare does not base reimbursement for covered drugs on
NDCs; instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid. We did not examine NDCs that CMS opted to exclude
from its calculation, nor did we verify the accuracy of CMS’s crosswalk files.

As of September 2008, CMS had established prices for 523 HCPCS codes based on the
revised ASP reimbursement methodology mandated by section 112(a) of the Medicare,
Medicaid, and SCHIP Extension Act of 2007. 14 Reimbursement amounts for the
523 HCPCS codes were based on ASP data for 3,356 NDCs.

Analysis of Average Manufacturer Price Data From the Second Quarter of 2008
In quarters prior to 2008, OIG performed pricing comparisons for only those drug codes with
AMP data for every drug product used by CMS to calculate the Medicare reimbursement
amount. As a result of that conservative approach, at least 17 percent of HCPCS codes were
excluded from our analysis in any given quarter. As of the first quarter of 2008, we began
additionally examining drug codes with only partial AMP data (i.e., drug codes with AMP
data for some, but not all, of the products used to establish Medicare reimbursement). This
ensures that a broader range of drug codes is subject to OIG’s pricing comparisons.

For the purposes of this report, we divided HCPCS codes into the following three groups:

        (1) HCPCS codes with AMP data for every NDC that CMS used in its calculation of
            volume-weighted ASPs,

        (2) HCPCS codes with AMP data for only some of the NDCs that CMS used in its
            calculation of volume-weighted ASPs, and

        (3) HCPCS codes with no AMP data for any of the NDCs that CMS used in its
            calculation of volume-weighted ASPs.

As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity
of the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP
is reported for the entire amount of the drug contained in the NDC (e.g., for 50 milliliters, for
100 tablets). To ensure that the AMP would be comparable to the ASP, it was necessary to
convert the AMP for each NDC so that it represented the total amount of the drug contained
in that NDC.

14
 Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP
methodology.

OEI-03-09-00050                                    Comparison of Second-Quarter 2008 ASPs and AMPs
Page 7 – Charlene Frizzera


To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the
AMP by the total amount of the drug contained in each NDC, as identified by sources such as
the CMS crosswalk file, manufacturer Web sites, the “Red Book,” and the Food and Drug
Administration’s NDC directory. For certain NDCs, we were unable to successfully identify
the amount of the drug reflected by the ASP and therefore could not calculate converted
AMPs. Because of these unsuccessful AMP conversions, nine HCPCS codes were removed
from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP
for each of the corresponding HCPCS codes, consistent with the revised methodology for
calculating volume-weighted ASPs. Appendix C provides a more detailed description of the
methods that we used to both convert AMPs and calculate volume-weighted AMPs. Table 1
provides the final number of HCPCS codes and NDCs included in our analysis after we
removed NDCs with either no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                             Number of       Number of
 Availability of AMP Data for HCPCS Code
                                                                          HCPCS Codes           NDCs

 Complete AMP Data                                                                 303           1,202

 Partial AMP Data                                                                  143           1,139

 No AMP Data                                                                        68            433

Source: OIG analysis of second-quarter 2008 ASP and AMP data, 2008.


Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for the Second
Quarter of 2008 Using the Revised ASP Payment Methodology
For each of the HCPCS codes included in our study, we compared the volume-weighted
ASPs and AMPs and identified codes with ASPs that exceeded the AMPs by at least
5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our
review, NDCs for four codes had billing unit information in CMS’s crosswalk file that may
not have accurately reflected the number of billing units actually contained in the NDCs.
Because volume-weighted ASPs and AMPs are calculated using this billing unit information,
we could not be certain that the results for these codes were correct. Therefore, we did not
consider these four HCPCS codes as having met the 5-percent threshold.




OEI-03-09-00050                                       Comparison of Second-Quarter 2008 ASPs and AMPs
Page 8 – Charlene Frizzera


For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP. 15 For each of the HCPCS codes that met the
5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted
this amount from the fourth-quarter 2008 reimbursement amount for the HCPCS code, which
is equal to 106 percent of the volume-weighted ASP. To estimate the financial effect for the
fourth quarter of 2008, we then multiplied the difference by one-fourth of the number of
services that were allowed by Medicare for each HCPCS code in 2007, as reported in
BESS. 16 This estimate assumes that the number of services that were allowed by Medicare
in 2007 remained consistent from one quarter to the next and that there were no significant
changes in utilization between 2007 and 2008.

Identifying Codes That Would Also Have Met the 5-Percent Threshold in Previous
Quarters Under the Revised Payment Methodology
Using volume-weighted ASPs and AMPs calculated under the revised ASP payment
methodology, 17 we determined whether codes meeting the 5-percent threshold in the second
quarter of 2008 would have also met the 5-percent threshold in any of the five previous
quarters, dating back to the first quarter of 2007.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we
verify the underlying methodology used by manufacturers to calculate ASPs and AMPs.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days
after the close of the quarter. Our analyses were performed on ASP and AMP data compiled
by CMS soon after that deadline. We did not verify whether manufacturers later provided
revised or missing data to CMS.

Furthermore, the definition of AMP changed effective January 2007, such that AMPs must
now be determined without regard to customary prompt pay discounts. 18 Because
manufacturers are still required to include customary prompt pay discounts in their ASP
calculations, the dynamic between ASPs and AMPs may be different in this report as
compared to that in OIG reports using prices submitted before 2007.

15
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of
the AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
16
   At the time of extraction, 2007 BESS data were 98 percent complete.
17
   CMS was not required to apply the revised ASP payment methodology to ASP data submitted by
manufacturers prior to the fourth quarter of 2007. However, to establish a more useful and consistent
benchmark for comparisons of ASPs and AMPs over time, OIG recently completed a report examining ASPs
and AMPs for all four quarters of 2007 using the revised methodology (i.e., we recalculated volume-weighted
ASPs and AMPs using the revised methodology for the first three quarters of 2007). We used these
recalculated ASPs and AMPs in this current report.
18
   Section 1927(k)(1) of the Act (as amended by section 6001(c)(1) of the DRA) and CMS, Medicaid Drug
Rebate Program, “Bulletin for Participating Drug Manufacturers,” Release No. 76, December 15, 2006.

OEI-03-09-00050                                      Comparison of Second-Quarter 2008 ASPs and AMPs
Page 9 – Charlene Frizzera


Standards
This inspection was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.

RESULTS

Of the 303 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
10 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs
to AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. Under the revised ASP payment methodology recently mandated by
statute, 10 of the 303 HCPCS codes with complete AMP data (3 percent) met this 5-percent
threshold in the second quarter of 2008. A list of the 10 HCPCS codes, including their
descriptions and HCPCS dosage amounts, is presented in Appendix D.

Table 2 describes the extent to which ASPs exceeded AMPs for the 10 HCPCS codes. 19 For
two of the codes, volume-weighted ASPs exceeded volume-weighted AMPs by 50 percent or
more. The ASP for one of these codes was more than double the AMP.

                        Table 2: Extent to Which ASPs Exceeded AMPs for
                            10 HCPCS Codes With Complete AMP Data
                            Percentage by Which ASPs           Number of HCPCS
                            Exceeded AMPs                                 Codes
                            5.00%–9.99%                                         1
                            10.00%–19.99%                                       7
                            20.00%–29.99%                                       0
                            30.00%–39.99%                                       0
                            40.00%–49.99%                                       0
                            50.00%–59.99%                                       1
                            60.00%–69.99%                                       0
                            70.00%–79.99%                                       0
                            80.00%–89.99%                                       0
                            90.00%–99.99%                                       0
                            100% and above                                      1
                               Total                                           10

                          Source: OIG analysis of second-quarter 2008 ASP and AMP data, 2008.




19
     Because of the confidential nature of ASP data, the information in the table is presented in ranges.

OEI-03-09-00050                                         Comparison of Second-Quarter 2008 ASPs and AMPs
Page 10 – Charlene Frizzera


Most of the HCPCS codes (8 of 10) were previously identified by OIG as having ASPs that
exceeded the AMPs by at least 5 percent. 20 Under the revised ASP payment methodology,
three HCPCS codes (J1364, J2690, and Q0169) would have met the 5-percent threshold in
each of the past six quarters, dating back to the first quarter of 2007. An additional three
HCPCS codes would have met the 5-percent threshold in four of the six quarters if the
revised methodology had been used since the beginning of 2007. Table 3 presents a
breakdown of the eight HCPCS codes that previously met the threshold for price
adjustments.

Table 3: Eight HCPCS Codes That Met the 5-Percent Threshold in the Second Quarter of 2008
         and Previous Quarters (According to CMS’s Revised Payment Methodology)

                                                    OIG Comparisons of ASPs to AMPs
               HCPCS            Second          First         Fourth         Third       Second          First
               Code             Quarter       Quarter        Quarter       Quarter       Quarter       Quarter
                                  2008          2008            2007         2007          2007          2007

               J1364              X             X             X             X              X             X
               J2690              X             X             X             X              X             X
               Q0169              X             X             X             X              X             X
               J2760              X             X             X                            X
               J9250              X             X*                          X                            X
               J9260              X             X*                          X                            X
               Q0168              X                           X
               J9340              X                                                        X
              * These two codes met the 5-percent threshold in the first quarter of 2008 based on partial AMP data.
              Source: OIG analysis of ASP and AMP data from the first two quarters of 2008 and all four quarters of 2007.


Lowering reimbursement amounts for the 10 HCPCS codes to 103 percent of the AMPs
would have reduced Medicare allowances by over half a million dollars in the fourth quarter
of 2008. Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary may
disregard the ASP pricing methodology for a drug with an ASP that exceeds the AMP by at
least 5 percent. Pursuant to section 1847A(d)(3)(C) of the Act, “. . . the Secretary shall,
effective as of the next quarter, substitute for the amount of payment . . . the lesser of (i) the
widely available market price . . . (if any); or (ii) 103 percent of the average manufacturer
price . . . .” 21 In this study, we identified 10 HCPCS codes that met the 5-percent threshold
specified in the Act. If reimbursement amounts for these 10 codes had been based on




20
   We compared the results from this report to those in recent OIG reports (OEI-03-08-00530 and
OEI-03-08-00450) that examined ASPs and AMPs for the first quarter of 2008 and all four quarters of 2007
using the revised methodology.
21
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimates presented in this report would have been greater.

OEI-03-09-00050                                         Comparison of Second-Quarter 2008 ASPs and AMPs
Page 11 – Charlene Frizzera


103 percent of the AMPs during the fourth quarter of 2008, we estimate that Medicare
expenditures would have been reduced by $534,000 in that quarter. 22 23

One of the 10 HCPCS codes accounted for over 90 percent of the estimated savings. If the
reimbursement amount for code J9225 had been based on 103 percent of the AMP during the
fourth quarter of 2008, Medicare expenditures would have been reduced by an estimated
$496,000.

Of the 143 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
21 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 143 HCPCS
codes for which only partial AMP data were available. Under the revised payment
methodology, ASPs for 21 of these 143 HCPCS codes (15 percent) exceeded the AMPs by at
least 5 percent in the second quarter of 2008. A list of the 21 HCPCS codes, including their
descriptions and HCPCS dosage amounts, is presented in Appendix E.

Table 4 describes the extent to which ASPs exceeded AMPs for the 21 HCPCS codes. 24 For
43 percent of the codes (9 of 21), volume-weighted ASPs exceeded volume-weighted AMPs
by 20 percent or more. The ASP for one of these codes was more than double the AMP.

                      Table 4: Extent to Which ASPs Exceeded AMPs for
                         21 HCPCS Codes With Partial AMP Data
                         Percentage by Which ASP            Number of HCPCS
                         Exceeded AMP                                  Codes
                         5.00%–9.99%                                         7
                         10.00%–19.99%                                       5
                         20.00%–29.99%                                       3
                         30.00%–39.99%                                       3
                         40.00%–49.99%                                       0
                         50.00%–59.99%                                       1
                         60.00%–69.99%                                       0
                         70.00%–79.99%                                       0
                         80.00%–89.99%                                       0
                         90.00%–99.99%                                       1
                         100% and above                                      1
                            Total                                           21

                       Source: OIG analysis of second-quarter 2008 ASP and AMP data, 2008.



22
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.
23
   One of the 10 HCPCS codes did not have any services in the 2007 BESS file. As a result, a savings estimate
could not be calculated for this code.
24
   The information in the table is presented in ranges because of the confidential nature of ASP data.

OEI-03-09-00050                                     Comparison of Second-Quarter 2008 ASPs and AMPs
Page 12 – Charlene Frizzera


Over 40 percent of the 21 HCPCS codes with partial AMP data were previously identified by
OIG as having ASPs that exceeded the AMPs by at least 5 percent. 25 Under the revised ASP
payment methodology, two HCPCS codes (J1626 and J2700) would have met the 5-percent
threshold in three of the past six quarters. The remaining seven HCPCS codes would have
met the 5-percent threshold in two of the six quarters if the revised methodology had been
used since the beginning of 2007. Table 5 presents a breakdown of the nine HCPCS codes
that previously met the threshold for price adjustments.

 Table 5: Nine HCPCS Codes That Met the 5-Percent Threshold in the Second Quarter of 2008
         and Previous Quarters (According to CMS’s Revised Payment Methodology)

                                                      OIG Comparisons of ASPs to AMPs
               HCPCS              Second         First         Fourth        Third       Second          First
               Code               Quarter      Quarter        Quarter      Quarter       Quarter       Quarter
                                    2008         2008            2007        2007          2007          2007

               J1626               X             X*            X
               J2700               X             X                           X
               J0560               X             X*
               J0670               X             X*
               J1190               X             X*
               J2310               X             X*
               J9000               X             X*
               Q0175               X                                         X
               Q0176               X                                         X
              * These codes met the 5-percent threshold in the first quarter of 2008 based on partial AMP data.
              Source: OIG analysis of ASP and AMP data from the first two quarters of 2008 and all four quarters of 2007.


Lowering reimbursement amounts for the 21 HCPCS codes to 103 percent of the AMPs
would have reduced Medicare allowances by an estimated $3 million in the fourth quarter of
2008. 26 27 28 Two of the 21 HCPCS codes accounted for 80 percent of the $3 million. If the
reimbursement amounts for codes J1626 and J9185 had been based on 103 percent of the
AMPs during the fourth quarter of 2008, Medicare expenditures would have been reduced by
an estimated $1.7 million and $649,000, respectively.



25
   Results from this report were compared to those in recent OIG reports (OEI-03-08-00530 and
OEI-03-08-00450) that examined ASPs and AMPs for the first quarter of 2008 and all four quarters of 2007
using the revised methodology.
26
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimates presented in this report would have been greater.
27
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.
28
   Two of the 21 HCPCS codes did not have any services in the 2007 BESS file. As a result, savings estimates
could not be calculated for these codes.

OEI-03-09-00050                                          Comparison of Second-Quarter 2008 ASPs and AMPs
Page 13 – Charlene Frizzera


Pricing Comparisons Could Not Be Performed on 68 Drug Codes Because No AMP
Data Were Available
For 68 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP
data for any of the 433 NDCs that CMS used when calculating drug reimbursement amounts
for these codes. In 2007, Medicare allowances for these 68 codes totaled $59 million.

Almost one-fifth of NDCs without AMP data belonged to manufacturers with Medicaid drug
rebate agreements. 29 Manufacturers for 19 percent of the NDCs without AMP data (81 of
433) participated in the Medicaid drug rebate program as of the second quarter of 2008 and
were therefore generally required to submit AMP data. 30 31 The majority (69 percent) of
these 81 NDCs belonged to three manufacturers.

Manufacturers for the remaining 352 of 433 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with sections
1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs and AMPs to identify
instances in which the ASP for a particular drug exceeded the AMP by at least 5 percent.
This is OIG’s 10th report comparing ASPs and AMPs, and it examined HCPCS codes with
AMP data for every NDC that CMS used to establish reimbursement amounts, as well as
HCPCS codes with only partial AMP data.

Using the revised ASP payment methodology recently implemented by CMS, we identified a
total of 31 HCPCS codes in the second quarter of 2008 that met the threshold for price
adjustment. Ten of the 31 HCPCS codes had complete AMP data. Of these 10 codes,
8 were previously identified by OIG as having ASPs that exceeded the AMPs by at least
5 percent under the revised payment methodology. Three of the eight HCPCS codes (J1364,
J2690, and Q0169) met the 5-percent threshold in each of the past six quarters, dating back to
the first quarter of 2007. The remaining 21 of 31 HCPCS codes also met the 5-percent
threshold in the second quarter of 2008 but did not have AMP data for every NDC that CMS
used when calculating reimbursement. Finally, we could not compare ASPs and AMPs for
68 HCPCS codes because AMP data were not submitted for any of the NDCs that CMS used
to calculate reimbursement. Manufacturers for almost one-fifth of these NDCs had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs.
OIG will continue to work with CMS to evaluate and pursue appropriate actions against
those manufacturers that fail to submit required data.
29
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted the list
of participating drug companies posted on CMS’s Web site.
30
   Although manufacturers with rebate agreements are generally required to submit AMP data, there may be
valid reasons why an AMP was not provided for a specific NDC in a given quarter. For example, a
manufacturer may not have been required to submit an AMP if the drug product had been terminated and there
was no drug utilization during the quarter.
31
   These 81 NDCs were crosswalked to 33 HCPCS codes.

OEI-03-09-00050                                    Comparison of Second-Quarter 2008 ASPs and AMPs
Page 14 – Charlene Frizzera


Some of OIG’s previous reports comparing ASPs and AMPs have contained
recommendations. We are not making additional recommendations in this report and, as
such, are issuing the report directly in final form. If you have comments or questions about
this report, please provide them within 60 days. Please refer to report number
OEI-03-09-00050 in all correspondence.




OEI-03-09-00050                            Comparison of Second-Quarter 2008 ASPs and AMPs
Page 15 – Charlene Frizzera


APPENDIX A

Equations Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices
In the following equations, a “billing unit” is defined as the number of Healthcare Common
Procedure Coding System (HCPCS) code units that are contained in a national drug code
(NDC).



1. The Revised Equation Used by the Centers for Medicare & Medicaid
   Services (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP)
   Beginning April 1, 2008


                  Volume-Weighted ASP                   Sum of (ASP for NDC * Number of NDCs Sold)
                                           =
                   for the Billing Unit of
                       HCPCS Code                  Sum of (Number of NDCs Sold * Billing Units in NDC)




2. The Equation Used by CMS To Calculate Volume-Weighted ASPs Before
   April 1, 2008

                                                               ASP for NDC         * Number of NDCs Sold
                  Volume-Weighted ASP          Sum of
                                                            Billing Units in NDC
                   for the Billing Unit of
                       HCPCS Code          =
                                                                    Sum of Number of NDCs Sold




OEI-03-09-00050                                 Comparison of Second-Quarter 2008 ASPs and AMPs
Page 16 – Charlene Frizzera


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


   •   “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Prices to
       Average Manufacturer Prices” (OEI-03-04-00430), April 2006

   •   “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2006”
       (OEI-03-06-00370), July 2006

   •   “Comparison of Third-Quarter 2006 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2007”
       (OEI-03-07-00140), July 2007

   •   “Comparison of First-Quarter 2007 Average Sales Prices to Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Third Quarter 2007”
       (OEI-03-07-00530), September 2007

   •   “Comparison of Second-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Fourth Quarter 2007”
       (OEI-03-08-00010), December 2007

   •   “Comparison of Third-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for First Quarter 2008”
       (OEI-03-08-00130), May 2008

   •   “Comparison of Fourth-Quarter 2007 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Second Quarter 2008”
       (OEI-03-08-00340), August 2008

   •   “Comparison of Average Sales Prices and Average Manufacturer Prices: An Overview
       of 2007” (OEI-03-08-00450), December 2008

   •   “Comparison of First-Quarter 2008 Average Sales Prices and Average Manufacturer
       Prices: Impact on Medicare Reimbursement for Third Quarter 2008”
       (OEI-03-08-00530), December 2008




OEI-03-09-00050                         Comparison of Second-Quarter 2008 ASPs and AMPs
Page 17 – Charlene Frizzera


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Second Quarter of 2008

Healthcare Common Procedure Coding System codes with complete average manufacturer
price data. Of the 523 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 310 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 310 HCPCS codes
represented 1,287 NDCs. For six NDCs, we could not successfully identify the amounts of
the drugs reflected by the ASPs and therefore could not calculate converted AMPs. These
six NDCs were crosswalked to seven HCPCS codes. We did not include these seven HCPCS
codes (85 NDCs) in our final analysis.

Using the converted AMPs for the remaining 1,202 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 303 HCPCS codes consistent with the
revised methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 145 HCPCS codes with AMP data for
only some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
145 HCPCS codes represented a total of 1,636 NDCs. AMP data were either missing or
unavailable for 481 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 32

We calculated converted AMPs for all of the remaining 1,155 NDCs. For 16 of the
1,155 NDCs, we could not successfully identify the amounts of the drug reflected by the
ASPs and therefore could not calculate converted AMPs. We removed these 16 NDCs from
our analysis. 33 As a result, two HCPCS codes no longer had any NDCs with AMP data.
Therefore, these two HCPCS codes were removed from our analysis.

Using the converted AMPs for the remaining 1,139 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 143 HCPCS codes, consistent with the
revised methodology for calculating volume-weighted ASPs.




32
   Although AMP data for these 481 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
33
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding
HCPCS codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our
analysis of HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic
AMP conversions, but also the corresponding HCPCS codes.

OEI-03-09-00050                                 Comparison of Second-Quarter 2008 ASPs and AMPs
Page 18 – Charlene Frizzera


HCPCS codes with no AMP data. For 68 HCPCS codes, there were no AMP data for any of
the NDCs that CMS used in its calculation of volume-weighted ASPs. These 68 HCPCS
codes represented 433 NDCs.




OEI-03-09-00050                        Comparison of Second-Quarter 2008 ASPs and AMPs
Page 19 – Charlene Frizzera


APPENDIX D

Ten Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the Second Quarter of 2008


          Drug
          Code                                           Short Description                 Drug Code Dosage
          J1364                                         Erythro lactobionate                            500 mg

          J2690                                  Procainamide HCl injection                                    1g

          J2760                               Phentolaine mesylate injection                              5 mg

          J8515                                            Cabergoline, oral                           0.25 mg

          J9225                                             Histrelin implant                            50 mg

          J9250                               Methotrexate sodium injection                               5 mg

          J9260                               Methotrexate sodium injection                              50 mg

          J9340                                           Thiotepa injection                             15 mg

          Q0168                                             Dronabinol, oral                              5 mg

          Q0169                                      Promethazine HCl, oral                            12.5 mg

         Source: Office of Inspector General analysis of second-quarter 2008 average sales price and average
         manufacturer price data, 2008.




OEI-03-09-00050                                      Comparison of Second-Quarter 2008 ASPs and AMPs
Page 20 – Charlene Frizzera


APPENDIX E

Twenty-One Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the Second Quarter of 2008


          Drug
          Code                                            Short Description                Drug Code Dosage
          90376                        Rabies immune globulin, heat treated                           150 units

          J0500                                         Dicyclomine injection                            20 mg

          J0560                              Penicillin G benzathine injection                    600,000 units

          J0670                                    Mepivacaine HCl injection                             10 ML

          J1190                                   Dexrazoxane HCl injection                             250 mg

          J1626                                     Granisetron HCl injection                          100 mcg

          J1642                                     Heparin sodium injection                           10 units

          J2310                                       Naloxone HCl injection                              1 mg

          J2700                                    Oxacillin sodium injection                           250 mg

          J7506                                              Prednisone, oral                             5 mg

          J7509                                     Methylprednisolone, oral                              4 mg

          J9000                                              Doxorubicin HCl                             10 mg

          J9040                                   Bleomycin sulfate injection                          15 units

          J9130                                        Dacarbazine injection                            100 mg

          J9150                                                 Daunorubicin                             10 mg

          J9185                             Fludarabine phosphate injection                              50 mg

          J9370                                   Vincristine sulfate injection                           1 mg

          J9375                                   Vincristine sulfate injection                           2 mg

          J9380                                   Vincristine sulfate injection                           5 mg

          Q0175                                           Perphenazine, oral                              4 mg

          Q0176                                           Perphenazine, oral                              8 mg

         Source: Office of Inspector General analysis of second-quarter 2008 average sales price and average
         manufacturer price data, 2008.




OEI-03-09-00050                                       Comparison of Second-Quarter 2008 ASPs and AMPs
